     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278
May 11, 2010


Report Number: A-02-09-01010

Mr. Joel A. Perlman
Executive Vice President – Finance
Montefiore Medical Center
111 E. 210th Street
Bronx, NY 10467

Dear Mr. Perlman:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Credit Balances at the Jack D. Weiler
Hospital of the Albert Einstein College of Medicine. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
Jeffrey I. Jacobs, Audit Manager, at (212) 264-1321 or through email at
Jeffrey.Jacobs@oig.hhs.gov. Please refer to report number A-02-09-01010 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Joel A. Perlman


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
ROkcmORA@cms.hhs.gov
Department of Health & Human Services
           OFFICE OF

      INSPECTOR GENERAL





     REVIEW OF MEDICARE 

     CREDIT BALANCES AT

 THE JACK D. WEILER HOSPITAL 

   OF THE ALBERT EINSTEIN

    COLLEGE OF MEDICINE




                      Daniel R. Levinson

                       Inspector General


                          May 2010

                        A-02-09-01010

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
Department of Health & Human Services
           OFFICE OF

      INSPECTOR GENERAL





     REVIEW OF MEDICARE 

     CREDIT BALANCES AT

 THE JACK D. WEILER HOSPITAL 

   OF THE ALBERT EINSTEIN

    COLLEGE OF MEDICINE




                      Daniel R. Levinson

                       Inspector General


                          May 2010

                        A-02-09-01010

                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY


BACKGROUND 


Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for persons aged 65 and over and those who are disabled or have permanent
kidney disease. Section 1866(a)(1)(c) of the Act requires participating providers to furnish
information to the Centers for Medicare & Medicaid Services (CMS), which administers the
program, about payments made to them and to refund any payments incorrectly paid including
credit balances.

A credit balance is an improper or excess payment made to a provider as a result of patient
billing or claims processing errors. Credit balances generally occur when a provider is paid
twice for the same service either by Medicare or by Medicare and another insurer; paid for
services planned but not performed or for non-covered services; overpaid because of errors made
in calculating beneficiary deductible and/or coinsurance amounts; or a hospital that bills and is
paid for outpatient services included in a beneficiary’s inpatient claim.

The Jack D. Weiler Hospital of the Albert Einstein College of Medicine (the hospital) is a full
service, 396-bed acute-care hospital in The Bronx, New York. The hospital is operated by
Montefiore Health System. As of December 31, 2008, the hospital’s accounting records showed
483 Medicare credit balances totaling $733,143.

OBJECTIVE

Our objective was to determine whether Medicare credit balances recorded in the hospital’s
accounting records as of December 31, 2008, represented overpayments that the hospital should
have refunded to the Medicare program.

SUMMARY OF FINDING

The hospital did not always refund credit balances to Medicare in accordance with Federal
requirements. Of the 110 credit balances in our sample, 8 credit balances, totaling $56,101,
represented overpayments that were not refunded to Medicare in accordance with Federal
requirements. These credit balances had been recorded in the hospital’s accounting records for a
period ranging from 2 months to more than 5 years. The remaining 102 credit balances were
accounting discrepancies that did not represent overpayments due the Federal Government.

The eight credit balances not refunded to Medicare occurred due to clerical error.

RECOMMENDATION

We recommend that the hospital refund $56,101 to the Federal Government.




                                                i
HOSPITAL COMMENTS

In its written comments on our draft report, the hospital concurred with our recommendation.
The hospital’s comments are included in their entirety as the appendix.




                                               ii
                                                  TABLE OF CONTENTS


                                                                                                                                 Page


INTRODUCTION...................................................................................................................1


          BACKGROUND ..........................................................................................................1


          OBJECTIVE, SCOPE AND METHODOLOGY .........................................................1

               Objective ...........................................................................................................1

               Scope.................................................................................................................1

               Methodology.....................................................................................................2


FINDING AND RECOMMENDATION..............................................................................3


          CREDIT BALANCES NOT REFUNDED ..................................................................3


          RECOMMENDATION ................................................................................................3


          HOSPITAL’S COMMENTS ........................................................................................3


APPENDIX

          HOSPITAL COMMENTS




                                                                    iii
                                       INTRODUCTION


BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for persons aged 65 and over and those who are disabled or have permanent
kidney disease. Section 1866(a)(1)(c) of the Act requires participating providers to furnish
information to the Centers for Medicare & Medicaid Services (CMS), which administers the
program, about payments made to them and to refund any payments incorrectly paid including
credit balances.

A credit balance is an improper or excess payment made to a provider as a result of patient
billing or claims processing errors. Credit balances generally occur when a provider is paid
twice for the same service either by Medicare or by Medicare and another insurer; paid for
services planned but not performed or for non-covered services; overpaid because of errors made
in calculating beneficiary deductible and/or coinsurance amounts; or a hospital that bills and is
paid for outpatient services included in a beneficiary’s inpatient claim.

CMS requires Medicare providers to submit a completed Medicare Credit Balance Report,
Form CMS-838 within 30 days after the close of the calendar quarter, and include all Medicare
credit balances shown in the providers’ accounting records as of the last day of the reporting
quarter. Providers must pay all amounts owed Medicare at the time the credit balance report is
submitted. As an exception, pursuant to 42 CFR 489.20(h), providers are required to refund to
Medicare within 60 days any payment for the same services from Medicare and another payer
that is primary to Medicare.

The Jack D. Weiler Hospital of the Albert Einstein College of Medicine (the hospital) is a full
service, 396-bed acute-care hospital in The Bronx, New York. The hospital is part of the
Montefiore Health System. As of December 31, 2008, the hospital’s accounting records showed
483 Medicare credit balances totaling $733,143.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine whether Medicare credit balances recorded in the hospital’s
accounting records as of December 31, 2008, represented overpayments that the hospital should
have refunded to the Medicare program.

Scope

We limited our review to inpatient credit balances over $1,000 and outpatient credit balances
over $100 recorded in the hospital’s accounting records as of December 31, 2008. We did not
review the hospital’s overall internal control structure. Rather, we limited our review of internal
controls to obtaining an understanding of the hospital’s accounting for and reimbursing Medicare
for overpayments.



                                                1

We performed our fieldwork from March through August 2009 at Montefiore Health System’s
administrative offices in The Bronx, New York.

Methodology

To accomplish our objectives, we:

    •	 reviewed applicable laws, regulations, and guidelines;

    •	 held discussions with hospital officials to obtain an understanding of the hospital’s
       system for accounting for Medicare credit balances;

    •	 obtained information from the Medicare administrative contractor regarding credit
       balances reported by the hospital;

    •	 reconciled the hospital’s Medicare credit balances for the period ending December 31,
       2008, to those reported to the Medicare administrative contractor;

    •	 reconciled Medicare’s accounts receivable totals to the hospital’s adjusted trial balance as
       of December 31, 2008;

    •	 identified 483 Medicare credit balances, totaling $733,143 recorded by the hospital in its
       accounting records;

    •	 selected for review 80 inpatient credit balances over $1,000, totaling $463,931, and 30
       outpatient credit balances over $100, totaling $60,629;

    •	 reviewed supporting documentation for each of these 110 credit balances, including
       patient admission forms, Medicare remittance advices, patient accounts receivable
       details, and other hospital records related to the credit balances to determine whether the
       amounts recorded on the hospital’s books represented actual overpayments due to the
       Federal Government; and

    •	 determined whether each of the credit balance amounts 1 that represented Medicare
       overpayments due the Federal Government were refunded in accordance with Federal
       requirements.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

1
  The 110 credit balances recorded in the hospital’s accounting records exceeded actual overpayments by $1,282 due
to accounting entry errors.


                                                        2

                            FINDING AND RECOMMENDATION


The Hospital did not always refund credit balances to Medicare in accordance with Federal
requirements. Specifically, the hospital did not refund 8 credit balances, totaling $56,101, to
Medicare.

CREDIT BALANCES NOT REFUNDED

Section 1866(a)(1)(c) of the Act requires participating providers to furnish information to CMS,
which administers the Medicare program, about payments made to them and to refund any
payments incorrectly paid including credit balances.

The Hospital did not always refund credit balances to Medicare in accordance with Federal
requirements. Of the 110 credit balances in our sample, 8 credit balances, totaling $56,101,
represented overpayments that were not refunded to Medicare in accordance with Federal
requirements. These credit balances had been recorded in the hospital’s accounting records for a
period ranging from 2 months to more than 5 years. The remaining 102 credit balances were
accounting discrepancies that did not represent overpayments due the Federal Government.

The eight credit balances not refunded to Medicare occurred due to clerical error.

RECOMMENDATION

We recommend that the hospital refund $56,101 to the Federal Government.

HOSPITAL COMMENTS

In its written comments on our draft report, the hospital concurred with our recommendation. The
hospital’s comments are included in their entirety as the appendix.




                                                 3

APPENDIX

                                   APPENDIX: HOSPITAL COMMENTS


        MlINTIiI'lORg MEIN~ CHIllER
        Th. Ulllvtroll1 H~1taI             III But 210lh S1nei
        !<or 1M Alben ElulWl               1Ironx, NY JIl467-2~~

        ...., ...
        Coli.,. ofM.dlcl..                 1tS-7flS·625J Pax
                    ~ - .-




                                                                   Apri129,2010

                                                                                                 MONTEFIORE
Rcport Number:       A"()2"()9~O I 0 I 0




James P. Edert
Regional Inspector General
For Audit Services
Office of Inspector General
Region II
Jacob Javits Federal Building
26 Federal Pla;at - Room 3900
New York, NY 1027R

Dear Mr. Edert,

We have received the Draft Audit Report entitled Review of Medicare Credit Balances at the Jack D.
Weiler Hospital ofthe Albert Einstein College of Medicine.

The eight credit balances identified in the audit have been adjusted and handled acco rdingly.

In response to the audit findings , we reviewed and updated our Medicare Credit Balance Reporting Policy
and Procedure to assist with maintaining the timely filing of all credit balances as it relates to
overpayments. With enhanced controls and coordination, these updates will also help address and
alleviate derieal errors.

To further ensure that all credit balances are captured, report specifications were changed as we arc
mooing the credit reports at the reference number balance level rather than account number level. This
change has made it easier to trace and resolve existing credits.




CC:             Joel Perlman, EVP Finance
                Lynn Stansel, VP & COUlL~el, Compliance
